Case: 20-10329

Date Filed: 09/01/2020

Page: 1 of 4

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10329
Non-Argument Calendar
D.C. Docket Nos. 6:19-cv-02435-JA-LRH,
6:15 -cr-00048-JA-LRH-1

WILLIAM HENRY KEEHN, II,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Florida
(September 1, 2020)
Before MARTIN, JILL PRYOR, and BRASHER, Circuit Judges.
PER CURIAM:

Case: 20-10329

Date Filed: 09/01/2020

Page: 2 of 4

William Henry Keehn, II, is serving a total 450-month federal sentence after
pleading guilty in 2015 to receipt and production of child pornography. In 2016,
Keehn filed a motion to vacate his sentence pursuant to 28 U.S.C. § 2255. Keehn’s
§ 2255 motion argued that his sentence violated the Eighth Amendment because
the district court presumed that his applicable range under the U.S. Sentencing
Guidelines was reasonable instead of assessing the facts individually. The district
court denied Keehn’s § 2255 motion on the merits in 2018, The following year,

—„ t-

Keehn moved for leave to file a supplemental § 2255 motion alleging ineffective
assistance of counsel. The district court construed the motion as a second § 2255 - ,
motion and dismissed it without prejudice.
Later that year, Keehn filed a motion pursuant to Federal Rule of Civil
Procedure 60(b)(4). Rule 60(b)(4) permits a district court to “relieve a party or its
legal representative from a final judgment, order, or proceeding if the judgment
is void.” Fed. R. Civ. P. 60(b)(4). Keehn’s motion argued his conviction for childpornography production under 18 U.S.C. § 2251(a) and (e) exceeded the district
court’s subject-matter jurisdiction, and thus his conviction for that offense was
void. The district court dismissed the motion as an unauthorized second or
successive § 2255 motion. Keehn appeals from that dismissal.
Under the Antiterrorism and Effective Death Penalty Act (“AEDPA”),
federal prisoners are entitled to a “single collateral attack on their conviction or

2

.

Case: 20-10329

Date Filed: 09/01/2020

Page: 3 of 4

sentence “unless the conditions of [28 U.S.C. §] 2255(h) have been met.”
McCarthan v. Dir, of Goodwill Indus.-Suncoast, Inc.. 851 F.3d 1076,1090 (11th
Cir. 2017) (en banc) (quotation marks omitted and alteration adopted). Section
2255(h) permits a federal prisoner to file a “second or successive” motion for
relief, provided he receives certification from a panel of the Court of Appeals. In
other words, a prisoner may file his first collateral motion seeking relief from his
judgment or sentence with the district court. After that, every additional motion ;
seeking such relief must be directed in the first instance to our Court.
The “second or successive” bar applies to standard § 2255 motions as well
as § 2255 motions made under the guise of Rule 60(b). See Gonzalez v. Sec’y for
Den’t of Corr.. 366 F.3d 1253, 1263 (11th Cir. 2004) (en banc), aff d sub nom.
Gonzalez v. Crosby. 545 U.S. 524,125 S. Ct. 2641 (2005). The bar does not apply
to “true” Rule 60(b) motions, which seek “relief on a traditional Rule 60(b) ground
for relief from a prior judgment, or at least on a ground that was sometimes used
during the pre-AEDPA era.” IcL However, a Rule 60(b) motion that “seeks to add
a new ground for [habeas] relief’ or “attacks the federal court’s previous resolution
of a claim on the merits” is “of course” barred. Gonzalez, 545 U.S. at 532,125 S.
Ct. at 2648 (emphasis omitted).
The district court correctly dismissed Keelin’s Rule 60(b) motion as an
impermissible second or successive § 2255 motion. His motion asks for relief
/

3

Case: 20-10329

Date Filed: 09/01/2020

Page: 4 of 4

from the underlying criminal judgment based on a jurisdictional defect in those
proceedings. This request falls squarely within the traditional ambit of § 2255.
See Gonzalez. 366 F.3d at 1260 (“A § 2255 motion is aimed at having a judgment
of conviction and sentence set aside because of some constitutional violation,
jurisdictional defect, or other ground that makes the judgment subject to collateral
attack.”); cf. Gilbert v. United States. 640 F.3d 1293, 1323 (11th Cir. 2011) (en ,,
banc) (explaining that a Rule 60(b) motion is not second or successive when it
“asserts or reasserts no claim but instead attacks some defect in the integrity of the
federal habeas proceedings” (quotation marks omitted)), overruled on other
grounds bv McCarthan, 851 F.3d 1076. To the extent Keehn wants to challenge
his conviction for child-pornography production because of a defect in the district
court’s jurisdiction, he must first receive permission from our Court to make such a
§ 2255 motion. See 28 U.S.C. § 2244(b)(3).
AFFIRMED.

4

Case 6:19-cv-02435-JA-LRH Document 3 Filed 01/08/20 Page 1 of 3 PagelD 8

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

WILLIAM KEEHN,
Petitioner,
Case No: 6:19-cv-2435-Orl-28LRH
(6:15-cr-48-Orl-28KRS)

v.

UNITED STATES OF AMERICA,
Respondent.
ORDER
This case is before the Court on the following matters.
1.

Petitioner's Motion to Vacate Judgment (Doc. 1) is DISMISSED

WITHOUT PREJUDICE to allow Petitioner to seek authorization from the Eleventh
Circuit to file a successive § 2255 motion. Petitioner seeks relief pursuant to Rule 60(b)(4)
of the Federal Rules of Civil Procedure and requests the Court to vacate his conviction
for production of child pornography (Count Two). (Id. at 2-6.) In support of the motion,
Petitioner argues that the Court lacked jurisdiction to convict him of production of child
pornography in violation of 18 U.S.C. § 2251(a). (Id.).
Rule 60(b) "cannot be used to circumvent the prohibition on filing unauthorized
successive post-conviction challenges. " United States v. Bueno-Sierra, 723 F. App'x 850,853
(11th Or. 2018) (citing Gonzalez v. Crosby, 545 U.S. 524,530-32 (2005) and Franqui v. Florida,
638 F.3d 1368,1371-73 (11th Cir. 2011)). "A Rule 60(b) motion from a denial of a § 2255

Case 6:19-cv-02435-JA-LRH Document 3 Filed 01/08/20 Page 2 of 3 PagelD 9

motion is considered a successive motion if it 'seeks to add a new ground for relief or
'attacks the federal court's previous resolution of a claim on the merits.

Id. (quoting

Gonzalez, 545 U.S. at 532).
The Court denied Petitioner's § 2255 motion on the merits on September 5, 2018.
See Case No. 6:16-cv-2107-Orl-28KRS, Doc. 6. The argument made in the present motion
raises a new ground for relief, and the motion is merely an attempt to assert a claim of
error as to Petitioner's federal conviction. Under the circumstances, the Rule 60(b) motion
should be treated as a second or successive § 2255 motion.

.- -

.. ■ -

------

Before Petitioner may file a second or successive § 2255 motion in this Court, he must move in the Eleventh Circuit Court of Appeals for an order authorizing the district
court to consider the motion. See 28 U.S.C. §§ 2244 and 2255. Consequently, this motion
is dismissed without prejudice to allow Petitioner the opportunity to seek authorization
from the Eleventh Circuit Court of Appeals.1 Petitioner should be aware that § 2255 limits
the circumstances under which the Court of Appeals will authorize the filing of a second
or successive § 2255 motion.
2.

The Clerk of the Court is directed to send Petitioner an "Application for

Leave to File a Second or Successive Motion to Vacate, Set Aside, or Correct Sentence 28

1 Alternatively, Petitioner's Motion to Vacate Judgment (Doc. 1) is denied on the
merits. Pursuant to Rule 60(b)(4), a court may relieve a party from a final judgment if the
judgment is void. "A judgment is void for Rule 60(b)(4) purposes 'if the rendering court
was powerless to enter it.'" Campbell v. Sec'y for Dep't of Corr., 370 F. App'x 5,7 (11th Cir.
2010) (quoting Burke v. Smith, 252 F.3d 1260, 1263 (11th Cir. 2001)). Petitioner has not
established that the Court was powerless to enter judgment or any other basis warranting
relief.
2

-

Case 6:19-cv-02435-JA-LRH Document 3 Filed 01/08/20 Page 3 of 3 PagelD 10

U.S.C. § 2255 By a Prisoner in Federal Custody" form.
3.

This Court should grant an application for certificate of appealability only

if the Petitioner makes "a substantial showing of the denial of a constitutional right." 28
U.S.C. § 2253(c)(2). Petitioner has failed to make a substantial showing of the denial of a
constitutional right. Accordingly, a Certificate of Appealability is DENIED in this case.
DONE and ORDERED in Orlando, Florida on January ^ . 2020.

..

: -

i.

[A

JOHN ANTOON II
UNITED STATES DISTRICT JUDGE

hf».

Copies furnished to:
Unrepresented Party

3

